V
)

IN THE SUPREME COURT OF THE UNITED STATES
NOVEMBER 25, 2020
GEORGE JOSEPH RAUDENBUSH III
PETITIONER
MONROE COUNTY, TENNESSEE et al.,
RESPONDENTS

CERTIFICATE OF SERVICE
THIS CERTIFICATE OF SERVICE SHALL BE SERVED UPON
The law Firm of Taylor & Knight, representing Monroe County, Bill Bivens and Travis Jones.
800 S. Gay Street Suite 600 Knoxville, TN 37929 (865) 971-1701.
Law Firm of Watson & Roach, representing City of Tellico Plains and Brian Millsaps.
1500 Riverview Tower 900 S. Gay Street Knoxville, TN 37901 (865) 637-1700.
CERTIFICATE OF SERVICE
I hereby certify that on this 25th day of November, 2020, a copy of the Writ of Certiorari and support­
ing documents is being prepared electronically to be sent to: The defendants representatives. They shall
receive an e-mail copy of this writ and all accompanying documents filed with the United States
Supreme Court in the next 10 days. Defendants may also access this filing through the Court’s elec­
tronic filing system and records of the court.
Attorney Arthur F. Knight, III
Attorney Jonathan Swann Taylor
Taylor & Knight
800 S. Gay Street, Suite 600
Knoxville, Tennessee 37929
istavlor@tavlorknightlaw.com
(865) 971-1701

Attorney Reid Spaulding
Watson, Roach, Batson, Rowell & Lauderback
P.O. Box 131
Knoxville, Tennessee 37901
rspauIding@watsonroach.com
(865) 637-1700

/
Jese^ifi Raudenbushlff
2545 Woodbine Avenue
Knoxville, Tennessee 37914
standfast4truth@yahoo.com
(865) 228-9170

